               Department of Veterans Affairs
               Office of Inspector General



                 Office of Healthcare Inspections

Report No. 13-01819-133




              Healthcare Inspection 


   Improper Procurement and Billing 

     Practices for Anesthesiology 

               Services 

    George E. Wahlen VA Healthcare 

                System 

         Salt Lake City, Utah 





May 6, 2014

                      Washington, DC 20420
To Report Suspected Wrongdoing in VA Programs and Operations:
                    Telephone: 1-800-488-8244
                     E-Mail: vaoighotline@va.gov
                      Web site: www.va.gov/oig
Improper Procurement and Billing Practices for Anesthesiology Services, VASLCHCS, Salt Lake City, UT



                                 Executive Summary 

The VA Office of Inspector General Office of Healthcare Inspections conducted an
inspection in response to allegations about improper procurement of and billing
practices for anesthesiology services provided by an affiliated school of medicine, the
University of Utah School of Medicine (U of Utah), at the George E. Wahlen VA Salt
Lake City Health Care System (VASLCHCS), Salt Lake City, UT.

We substantiated the allegation that until April 2011, there had been no formal
negotiated contracts for anesthesiology services between VASLCHCS and U of Utah
since 2002; VASLCHCS was paying for services performed at the VA facility through
the use of purchase orders.

We substantiated the allegation that U of Utah billed VASLCHCS for work performed by
an anesthesiologist employed by VASLCHCS.

We substantiated the allegation that VASLCHCS was billed at unsupported rates as set
forth in VA Directive 1663 for medical services performed by U of Utah
anesthesiologists.

We recommended that the Under Secretary for Health develop and implement a plan of
action to ensure that procedures described in VA Directive 1663 are followed when
purchasing medical services from VA affiliated academic institutions and prohibit the
use of purchase orders to obtain contract provider services unless the purchase orders
contain required clauses.

We recommended that the Veterans Integrated Service Network and VASLCHCS
Directors ensure compliance with VA Directive 1663.

Comments
The Under Secretary for Health and the Veterans Integrated Service Network and
Facility Directors concurred with our recommendations and provided an acceptable
action plan. (See Appendixes B, C, and D, pages 12–18.) We will follow up on the
planned actions until they are completed.




                                                            JOHN D. DAIGH, JR., M.D.
                                                           Assistant Inspector General for
                                                             Healthcare Inspections




VA Office of Inspector General                                                                     i
    Improper Procurement and Billing Practices for Anesthesiology Services, VASLCHCS, Salt Lake City, UT


                                                  Purpose 

The VA Office of Inspector General Office of Healthcare Inspections conducted an
inspection in response to allegations about improper procurement of and billing
practices for anesthesiology services provided by an affiliated school of medicine, the
University of Utah School of Medicine, (U of Utah) at the VA Salt Lake City Health Care
System (VASLCHCS), Salt Lake City, UT. The purpose of this inspection was to review
those allegations.

                                             Background 

Affiliated Academic Institutions

Affiliation Agreements. Conducting an education and training program for health
professions students and residents is one of VA’s four statutory missions. VA works to
accomplish this mission through affiliations with academic institutions. Agreements with
academic affiliates promote common standards for patient care, student and resident
education, research, and staff appointments. The benefits of medical school affiliations
include the ability for veteran patients to have ready access to university physicians and
the opportunity for trainees to work in VA’s unique health care environment. In order to
support the medical center programs that provide resident training, physician staff at the
VA facility must be qualified to provide the training and resident supervision as required
by the Accreditation Council for Graduate Medical Education.1

Sole-Source Contracts with Affiliated Academic Institutions

Sole-Source Contracts. Under Section 8153 of Title 38 of the United States Code, to
secure health care resources which otherwise might not be feasibly available, the
Secretary has authority to enter into contracts or other agreements for the mutual use,
or exchange of use, of health care resources between VA health care facilities and any
health care provider, or other entity or individual. The statute also permits VA to enter
into sole-source contracts or agreements with an affiliate or entities, such as a practice
group, associated with an affiliate, to obtain health care resources. VA Directive 1663
sets forth the policies and responsibilities for implementing and managing VA’s health
care resources sharing authority, including the process for securing sole-source
contracts.2

Under VA Directive 1663, when recruitment efforts for qualified clinicians are
unsuccessful (or recruitment is not considered to be in the best interests of the VA), the
facility director may either transfer patients to another facility or contract for services.
While a competitive bid contract is generally the preferred option, a non-competitive or

1
  The Accreditation Council for Graduate Medical Education is a private professional organization that is

responsible for the accreditation of physician-in-training residency programs in 133 specialty and subspecialty areas 

of medicine. 

2
  VA Directive 1663, Health Care Resources Contracting – Buying Title 38 U.S.C. 8153, August 10, 2006. 





VA Office of Inspector General                                                                                       1
    Improper Procurement and Billing Practices for Anesthesiology Services, VASLCHCS, Salt Lake City, UT


sole-source contract with an affiliated academic institution is acceptable when education
and supervision of graduate medical trainees is required because the affiliated
academic institution physicians will have the requisite teaching and resident supervision
qualifications.

VA Directive 1663 states that the facility director must submit the request for the sole-
source contract through the Network Chief Medical Officer for approval by the Veterans
Integrated Service Network (VISN) director. The sole-source contract request is then
forwarded to the VA Contracting Office. Prior to solicitation, alternate plans must be
established in the event a contract cannot be awarded.
An acquisition team is appointed to prepare and negotiate contract terms. A
Contracting Officer (CO) must be a member of the acquisition team. When the total
value of a proposed sole-source contract exceeds $500,000, the proposal must be
submitted to the OIG Office of Contract Review (OCR) for a pre-award review. OCR
determines whether proposed costs are allowable, fair, and reasonable and makes
recommendations to address pricing and other issues. Allowable costs include direct
costs rather than indirect ones such as general department or university overhead
costs.    Pre-award review recommendations from OCR provide a baseline for
negotiation.

Interim Contract Authority. VA Directive 1663 estimates that for non-competitive
awards, the contracting office should complete the solicitation to award process in 28
weeks. On an emergency basis for short-term needs or as an interim measure to
complete the contracting cycle for long-term needs, the CO is allowed to enter into a
contract under Interim Contract Authorities for a limited time (180 days). Additional
interim contract authority may be granted by the VHA Procurement & Logistics Office
(10F), however, total interim contract time should not exceed 1 year.3

Prior OIG Review of VHA Sole-Source Contracts with Affiliated Institutions

In our 2011 report, we determined that VHA had not effectively implemented all the
requirements set forth in VA Directive 1663 and had not provided the necessary
resources to the Medical Sharing Office (MSO) or adequate training to VHA
procurement and non-procurement staff.4 In response, VHA undertook a large effort to
fully comply with VA Directive 1663 that included adding staff at MSO, implementing a
central tracking system, new policies and procedures, and providing comprehensive
standardized training. The number of sole-source contracts awarded since the new
processes were initiated has more than doubled from 107 in FY 2011 to 277 in
FY 2013, and the value of the awards has increased from $142 million to $357 million.

Furthermore, VHA has been working on the development of clear and well-defined
national standard statements of work for each medical specialty and has completed

3
 VA Directive 1663, Health Care Resources Contracting – Buying Title 38 U.S.C. 8153, August 10, 2006.
4
 VA OIG Report No. 09-00981-227, Review of VHA Sole-Source Contracts with Affiliated Institutions, July 21,
2011.




VA Office of Inspector General                                                                                2
    Improper Procurement and Billing Practices for Anesthesiology Services, VASLCHCS, Salt Lake City, UT


ones for a few areas including Radiation and Oncology. VHA has reported that a
standard statement of work for the Anesthesiology specialty is near completion.

VASLCHCS and U of Utah

The VASLCHCS is a 121-bed tertiary care facility serving veterans residing within a
25,000 square mile primary service area and is part of VISN 19, also known as the
Rocky Mountain Network. VASLCHCS offers traditional services, as well as specialty
services such as open-heart surgery, including cardiac transplantation.

VASLCHCS has had an affiliation with the U of Utah School of Medicine since 1946.
Medical education is an integral part of U of Utah’s relationship with VASLCHCS. While
the responsibility for medical education rests with the academic institution and the
school of medicine, VA is responsible for the medical care provided at VA facilities.

VASLCHCS Anesthesiology Services

VASLCHCS employs two full time anesthesiologists—one in the operating room (OR)
and one in the Pain Management clinic—and five part-time anesthesiologists. The
Chief of Anesthesiology, who holds dual appointments at the facility and the U of Utah,
fills one of the part-time positions. The other four part-time anesthesiologists perform
mostly clinical duties in the OR, Same Day Surgical Unit, Surgical Intensive Care Unit,
and other clinics that may require anesthesia care. The total VASLCHCS full-time
employee equivalents (FTE)5 authorized for anesthesiology is 4.2 FTE, which is not
sufficient to provide services for all shifts in all areas requiring anesthesiology services.

In order to provide the needed services, VASLCHCS pays the U of Utah for
anesthesiology support in the six operating rooms that function Monday through Friday,
10 hours per day. Additionally, U of Utah anesthesiologists support the Cardiac
Catheterization Laboratory, Gastrointestinal Clinic, and other clinics as needed and are
on call nights and weekends. The VASLCHCS anesthesiologists have not been
required to provide on-call coverage.6 For at least 12 years, U of Utah has provided
4.36 FTE (approximately 218 hours per week at 50 hours per FTE) anesthesiologists to
the VASLCHCS at a cost of approximately $1.8 to $2 million per year. On-call coverage
accounts for 118 of the 218 hours of the purchased services.

VASLCHCS has paid U of Utah for services without a formal contract for at least
9 years using purchase orders. VASLCHCS, through the VISN contracting office, has
been negotiating a sole-source contract with U of Utah for the provision of


5
  Generally, the FTE is the number of work force hours required divided by the number of hours that is considered
full time. However, the basis for calculating FTE requirements may vary; for example, the total FTE requirement
may or may not include additional hours for on call requirements or vacation and other times that staff would be
unavailable.
6
  VA Directive 1663 encourages part-time VA physician employees to provide on-call services on a work without
compensation basis proportionate to the percentage of time they devote to the VA (for example, 1/8, 3/8); however,
VASLCHCS does not follow this practice.




VA Office of Inspector General                                                                                       3
    Improper Procurement and Billing Practices for Anesthesiology Services, VASLCHCS, Salt Lake City, UT


anesthesiology services for over 2 years without success after awarding an interim
contract in April 2011.

Allegations

The allegations included the following:

       	 There have been no contracts for anesthesiology services between VASLCHCS
          and U of Utah since 2002.

       	 U of Utah billed             VASLCHCS           for    work     performed       by     VASLCHCS
          anesthesiologists.

       	 U of Utah billed excessive rates for medical services provided by U of Utah
          anesthesiologists.

                               Scope and Methodology 

We conducted an initial site visit in June 2011 and a follow-up visit in May 2013. Our
review was suspended between the two visits while a review of a potential criminal
violation was conducted.

We interviewed the Chief of Staff, Chief of Anesthesiology, Acting Chief of Human
Resources, Contracting Officers, and other knowledgeable VASLCHCS staff.

We reviewed OIG OCR pre-award review reports from 20027 and 2006,8 contracts,
invoices, disbursement data, anesthesiology scheduling logs and sign-in sheets, time
and attendance reports, medical records, consultation completion reports, credentialing
folders, and other related documents. Prior to the site visit, we reviewed VA, VHA, and
local policies.

In addition, we reviewed the following OIG reports: Evaluation of VHA Sole-Source
Contracts with Medical Schools and Other Affiliated Institutions, Report No. 05-01318-
85, February 16, 2005, and Review of VHA Sole-Source Contracts with Affiliated
Institutions, Report No. 09-00981-227, July 21, 2011.

We expanded our review of the VASLCHCS’s sole-source contract for anesthesiology
services to other VA facilities purchasing anesthesiology services to evaluate whether
other facilities encountered similar issues while attempting to secure a long-term
contract. We found that 10 other facilities had requested and received a pre-award
review of proposals for purchased anesthesiology services.          We reviewed the
contractual arrangements of the 10 other VA medical centers and compared

7
  Review of Proposal Submitted by the University of Utah under Solicitation Number 660-011-02 for Anesthesiology

Services at the Department of Veterans Affairs Salt Lake City Health Care System , November 20, 2002.

8
  Review of Proposal Submitted by the University of Utah under Solicitation Number 259-115-05 for Anesthesiology

Services at the Department of Veterans Affairs Salt Lake City Health Care System , May 9, 2006.





VA Office of Inspector General                                                                                 4
Improper Procurement and Billing Practices for Anesthesiology Services, VASLCHCS, Salt Lake City, UT


VASHCHCS’s practices to the other facilities by reviewing documents on the Electronic
Contract Management System and payments made through the Federal Procurement
Data System.

We conducted the inspection in accordance with Quality Standards for Inspection and
Evaluation published by the Council of the Inspectors General on Integrity and
Efficiency.




VA Office of Inspector General                                                                    5
    Improper Procurement and Billing Practices for Anesthesiology Services, VASLCHCS, Salt Lake City, UT



                                      Inspection Results 

Issue 1: Anesthesiology Services Purchased Without a Contract

We substantiated the allegation that VASLCHCS purchased anesthesiology services
using purchase orders without an underlying negotiated contract for almost 9 years
(2002–2011). The purchase orders included only an annual price. They did not contain
terms and conditions required to protect the Government’s interests, such as
statements that the U of Utah providers were independent contractors, that they must
carry malpractice insurance, or that they must comply with VA policies including VHA’s
credentialing and privileging process. The CO paid what U of Utah proposed without a
price reasonableness determination.

In April 2011, after we started our review, VASLCHCS, through the VISN contracting
office, began awarding a series of 6-month interim contracts. Currently, the seventh of
a series of interim contracts is in effect, costing $1.9 million per year. We found that the
interim contracts did not receive the required approval by the VHA Procurement Office
and exceeded the maximum 1-year period for interim contracts. The use of serial short-
term contracts without price negotiation or price reasonableness determination
circumvented the required reviews and approval process. We were informed that a
long-term contract would be awarded in January 2014.

Issue 2: Inappropriate Billing for VA Staff

We substantiated the allegation that U of Utah billed the VASLCHCS for
echocardiography9 services performed by a dually employed anesthesiologist while
working at the VASLCHCS on VA time. Based on our findings, VASCLHCS was
subsequently reimbursed $60,980 for the improperly billed services. At the start of our
review, VASLCHCS did not have an echocardiography services contract but
subsequently initiated 2- and 6-month interim contracts beginning in October 2011.
When we conducted a follow-up review, we found that this item had been adjusted in
subsequent billing invoices. The facility is working on negotiating a long-term contract
but continues to purchase these services though short-term interim contracts without
price negotiation or price reasonableness determination.

Issue 3: Excessive Billing Rates for Anesthesiology Services

We substantiated the allegation that the VASLCHCS was billed for anesthesiology
services at excessive rates because there was no price reasonableness determination
or price negotiation.



9
  An echocardiogram is a test that uses sound waves to evaluate the beating heart; it is usually performed and
interpreted by a cardiologist (heart doctor). However, anesthesiologists with special training and experience may
perform and interpret echocardiograms.




VA Office of Inspector General                                                                                      6
 Improper Procurement and Billing Practices for Anesthesiology Services, VASLCHCS, Salt Lake City, UT


Since 1999, VA policy has required a pre-award review by OCR for all sole-source
health care resource contracts with a total value (base and option years) of more than
$500,000. In 2002, VASLCHCS submitted a proposal to OCR from U of Utah for a sole-
source contract for anesthesiology services. The pre-award report, sent to the CO in
November 2002, questioned $418,552.36 of the $2,616,861.12 (16 percent) of the
proposed contract costs and recommended recovery of $23,046.17 in overbilling for
on-call time from February through August 2002. No contract was awarded; yet, VA
continued to pay using purchase orders for the services when the prior contract expired
at the rates U of Utah requested.

In 2006, VASLCHCS submitted a proposal for a sole-source contract for anesthesiology
services valued at $1.4 million per year for 3.0 U of Utah FTE anesthesiologists10 to
OCR for a pre-award review. OCR determined that approximately 25 percent of the
proposed costs either were unallowable (indirect costs such as a dean’s tax and
university office maintenance costs) or unsupported (proposed salary and benefits rates
exceeded the actual salary and benefits paid to U of Utah anesthesiologists).
Negotiations for a contract based on the 2006 proposal were unsuccessful.
VASLCHCS continued to pay U of Utah for anesthesiology services without a contract
at a rate 25 percent higher than the amounts in U of Utah’s proposal and 50 percent
more than the rate recommended by OCR (see table below).

                Table 1: 2006 Pre-Award Review Summary and Subsequent Payments
                         A               B                     C              C-A                 C-B
                                        OCR                               Payments in         Payments in
                                                            Paid
                   Proposed          Pre-Award                             Excess of           Excess of
                                                          Invoiced
                     Costs         Recommended                             Proposed          Recommended
                                                          Amounts
Description                            Costs                                 Costs               Costs
Base Year -
2006               $1,407,877         $1,053,590         $1,754,544         $346,667             $700,954
Option Year -
2007               $1,407,877         $1,053,590         $1,754,544         $346,667            $700,954
Total              $2,815,754         $2,107,180         $3,509,088         $693,334           $1,401,908
Source: VA OIG

The amounts charged by U of Utah and paid by the VASLCHCS for anesthesiology
services have increased roughly 1 percent per year since 2006 to $1,860,000 in 2011.
The April 2011 interim contract used the higher FTE of 4.36 (half of which included
coverage for on-call time). The VISN contracting officer who awarded the first interim
contract reported in a February 2011 Price Negotiation Memorandum, that “U of Utah
was not interested in negotiating the price down and went to VA management
threatening to pull the whole anesthesiology program including the residents by July
2011.” The VASLCHCS Chief of Staff determined that “pulling” the program would not
be in the best interest of veterans and advised the CO to pay the asking price.
10
  The 2006 proposal cited a requirement of 3.0 FTE while the 2011 contract cited 4.36 FTEs; although, the
requirements for coverage reportedly did not change. The discrepancy in the FTE numbers for the same hours of
coverage may be attributable to varying criteria for calculating FTE.




VA Office of Inspector General                                                                                  7
 Improper Procurement and Billing Practices for Anesthesiology Services, VASLCHCS, Salt Lake City, UT


The 4.36 FTE included 118 hours on-call time11 per week. U of Utah anesthesiologists
receive a lower rate of pay for hours that they are on-call at VASLCHCS than their
regular hourly rate of pay for hours providing services. Per the terms of the interim
contract, VASLCHCS was billed the regular hourly rate of pay for on-call hours instead
of the lower on-call rate of pay for hours that U of Utah anesthesiologists were available
for urgent or emergency VA procedures whether or not they were called in to provide
anesthesiology services. Our analysis showed that the on-call anesthesiologists have
been called into the facility infrequently; less than 9 percent of the on-call time has been
spent in the hospital.

FTE Work Load Analysis. We analyzed how the U of Utah purchased anesthesiology
services were being utilized by VASLCHCS for 7 months in FY 2013 (Figure 1). Our
analysis included a review of anesthesiology caseload for the OR and all clinics that
required anesthesiology services. We found the caseload for anesthesiologists at
VASLCHCS averaged 57 cases per week during the study period, which required the
scheduling on average of 3.4 anesthesiologists in the OR (45 cases) and other clinics
(12 cases). Our analysis showed that on average, 1.43 VA anesthesiologist FTE and
2.0 U of Utah anesthesiologist FTE were scheduled each day. The difference between
the 2 FTE that U of Utah provides on average each day and the 4.34 FTE interim
contract requirement is the additional on-call time of 118 hours per week, which the VA
pays at full rate.

      Table 2. Average Number of Contract and VA Anesthesiologists Per Day and Case Load

                                             Anesthesiologist Weekly Average Vs. Case Load
 Week Of            1/11/2013    2/15/2013     3/15/2013   4/12/2013    5/10/2013    6/14/2013   7/12/2013    Average
 # of Contract           2           2             2           2            4            1            1            2
 # of VA                 1           2             2           1            0            2            2          1.43
 Case Load              60           60           64           52           50          57           58          57.29
Source: VA OIG

Incidental Findings

Purchasing Echocardiographic Services. In the course of our review, we discovered
that VASLCHCS has paid U of Utah nearly $672,000 for the interpretation of
approximately 3,900 echocardiograms per year by specially trained anesthesiologists
since 2009. Prior to 2011, similar to the purchase of anesthesiology services. these
payments were made using purchase orders that did not contain the terms and
conditions required to protect the government’s interests. In April 2011, a 6-month
short-term contract was put in place to pay 1.25 FTE to interpret echocardiograms. This
interim contract has been extended since 2011 and has not undergone the approvals
and price reasonableness determination necessary for a long-term contract.


11
  On-call time includes hours that a provider may be off-site but ready and available to return to the facility within a
pre-designated period if needed for an urgent or emergency procedure.




VA Office of Inspector General                                                                                           8
 Improper Procurement and Billing Practices for Anesthesiology Services, VASLCHCS, Salt Lake City, UT


Sole-source Contracts at Other VA Facilities. We found that the lack of a long-term
anesthesiology contract was not unique to VASLCHCS. We reviewed contracts from
10 VA medical centers that OCR had performed pre-award reviews for purchased
anesthesiology services from affiliated academic institutions. We identified problems
with 7 of the 10 contracts and found that only 3 facilities had long-term contracts in
place. Five of the 10 were using 6-month interim contracts, and 2 were purchasing
anesthesiology services using purchase orders without long-term contracts.

OIG has previously issued reports on sole-source contracts with affiliated academic
institutions.12 VHA concurred with the reports’ recommendations that included tracking
all health care contracting and spending with affiliated academic institutions for health
care services (including interim agreements), limiting overhead and on-call costs,
developing medical specialty performance work statements, and establishing FTE
standards by specialty. In response to the 2005 OIG report, VA issued Directive 1663.
However, there has been a significant lack of compliance, oversight, and controls
relating to sole-source contracts.

                                          Conclusions 

Our findings demonstrated inadequate oversight of the procurement of medical services
with no apparent repercussions for non-compliance over a long period. We found that
managers at the VHA Procurement & Logistics Office, VISN, and VASLCHCS were
aware of the long-standing contracting problems. We substantiated the following
allegations:

     1. VASLCHCS did not have	 a long-term negotiated contract in place for
        anesthesiology services between 2002 and 2011. Since April 2011, VASLCHCS
        has been relying on interim contracts that do not comply with VA Directive 1663.

     2. VASLCHCS was improperly billed for services provided by a physician holding
        dual appointments at VASLCHCS and U of Utah when working at the
        VASLCHCS on VA time. VASLCHCS has taken steps to resolve improper
        billing.

     3. VASLCHCS paid for anesthesiology services at non-negotiated prices that were
        25 percent higher than those proposed in response to a solicitation for a long-
        term contract and 50 percent more than the amount recommended by OCR.

VA allows sole-source (non-competitive) contractual agreements between affiliated
academic institutions and a VA facility with the expectation that both parties enter into
this arrangement in a spirit of mutually benefitting through an equitable contribution of
resources that is not motivated by profit. VASLCHCS leaders have an obligation to

12
  OIG issued Report No. 05-01318-85, Evaluation of VHA Sole-Source Contracts with Medical Schools and Other
Affiliated Institutions, February 16, 2005, and OIG issued Report No. 09-00981-227, Review of VHA Sole-Source
Contracts with Affiliated Institutions, July 21, 2011.




VA Office of Inspector General                                                                                  9
 Improper Procurement and Billing Practices for Anesthesiology Services, VASLCHCS, Salt Lake City, UT


ensure that VA pays fair and reasonable prices and resources are spent appropriately.
We found little or no evidence that an alternate plan was pursued that would either
obviate the need for a sole-source contract or improve VASLCHCS negotiating position.

After reviewing the contractual arrangements of 10 affiliated academic institutions, we
concluded that the inability to successfully negotiate a long-term contract has not been
a problem unique to VASLCHCS. Only 3 in 10 had a long-term contract in place after a
pre-award review. Although progress has been made, we noted that VHA has not fully
implemented the action plans from previous OIG reports13 that reviewed
sole-source contracts with affiliates. The failure of VHA to address these contracting
issues is evident by the difficulties in establishing beneficial contractual relationships
with affiliated academic institutions.

                                    Recommendations 

1. We recommended that the Under Secretary for Health develop and implement a plan
of action to ensure that VA purchase of medical services from affiliated academic
institutions is in compliance with VA Directive 1663 and procurement laws and
regulations.

2. We recommended that the Under Secretary for Health ensure that VA prohibits the
use of purchase orders to obtain contract provider services unless the purchase orders
contain the required clauses identified in the report.

3. We recommended that the Veterans Integrated Service Network Director ensure that
the procurement of specialized medical services is in accordance with VA Directive
1663.

4. We recommended that the Veterans Integrated Service Network Director ensure that
Interim Contract Authority is appropriately granted and used as outlined in VA Directive
1663.

5. We recommended that the VA Salt Lake City Health Care System Director develop
and implement as necessary an alternate source plan for the provision of
anesthesiology services that complies with VA Directive 1663.




13
  OIG issued Report No. 05-01318-85, Evaluation of VHA Sole-Source Contracts with Medical Schools and Other
Affiliated Institutions, February 16, 2005, and OIG issued Report No. 09-00981-227, Review of VHA Sole-Source
Contracts with Affiliated Institutions, July 21, 2011.




VA Office of Inspector General                                                                             10
Improper Procurement and Billing Practices for Anesthesiology Services, VASLCHCS, Salt Lake City, UT
                                                                                             Appendix A
     Pre-Award Reviews of Anesthesiology Contracts
      Table 3: Facilities Where Anesthesiology Contracts Underwent Pre-Award OCR Review

                            Between 2003 and 2013 by Type of Contract


          VA Facility            Last Contract    Contract Type           Affiliate            Year of 
                                     eCMS                                                     Last Pre‐
                                                                                               Award 
                                                                                               Review  
   South Texas Healthcare        VA‐257‐13‐C‐      Long Term         Univ of Texas San          2012 
    System (San Antonio)            0133                                 Antonio 
                                       
  Seattle VA Medical Center      VA260‐13‐C‐       Long Term        Univ of Washington         2003 
                                    0065 
  Birmingham VA Medical          VA247P‐0683         Expired         Univ of Alabama           2009 
          Center                                    Contract 
  Miami VA Medical Center        VA248‐P‐1726        Expired           Univ of Miami           2004 
                                                    Contract 
   Robley Rex VA Medical         VA249‐13‐C‐       Long Term         Univ of Louisville        2012 
     Center (Louisville)            0057A           Contract 
  VA Ann Arbor Healthcare        VA251‐13‐D‐       Short Term      Regents of the Univ of      2007 
          System                     0042           Contract             Michigan 
 Durham VA Medical Center        VA246‐14‐C‐       Short Term       Duke Univ Medical          2013 
                                     0211           Contract              Center  
   Pittsburgh VA Medical         VA244‐14‐C‐       Short Term        Univ of Pittsburgh        2010 
           Center                    0079           Contract 
 VA Nebraska‐Western Iowa        VA‐263‐13‐C‐      Short Term        Univ of Nebraska          2008 
     Healthcare System               0260           Contract           Med Center 
  Salt Lake City Healthcare      VA‐259‐13‐C‐      Short Term          Univ of Utah            2006 
           System                    0239           Contract  
Source: VA OIG




VA Office of Inspector General                                                                         11
Improper Procurement and Billing Practices for Anesthesiology Services, VASLCHCS, Salt Lake City, UT
                                                                                         Appendix B
               Under Secretary for Health Comments


               Department of
               Veterans Affairs	                             Memorandum

       Date:   March 18, 2014
       From: Under Secretary for Health (10)

     Subject:	 Office of Inspector General Draft Report: Healthcare Inspection—
               Improper Procurement and Billing Practices for Anesthesiology
               Services, VA Health Care Systems, Salt Lake City, Utah (VAIQ
               7441668)
         To:	 Director,  Healthcare Financial          Analysis     Division,   Office    of
               Healthcare Inspections (54D)

               1. I have reviewed the draft report and concur with the report’s
                  recommendations. Attached is the Veterans Health
                  Administration’s corrective action plan to address the report’s
                  recommendations.

               2. If you have any questions, please contact Karen M.
                  Rasmussen, M.D., Director, Management Review Service
                  (10AR) at (202) 461-6643.




VA Office of Inspector General                                                                   12
Improper Procurement and Billing Practices for Anesthesiology Services, VASLCHCS, Salt Lake City, UT



                         Comments to OIG’s Report
The following Under Secretary for Health comments are submitted in response to the
recommendations in the OIG report:


Recommendations/                             Status                  Completion
Actions                                                              Date

Recommendation 1. We recommended that the Under Secretary for Health
develop and implement a plan of action to ensure that VA purchase of medical
services from affiliated academic institutions is in compliance with VA Directive
1663 and procurement laws and regulations.

VHA Comments:

Concur

Target date for completion: May 31, 2014

Health Care Contract actions, including medical services from affiliated academic
institutions, are managed through the VHA Medical Sharing/Affiliate Office (MSO)
technical review process that includes detailed scrutiny to ensure compliance with VA
Directive 1663, Health Care resources Contracting-Buying Title 38 U.S.C 8153.
Recommendation 1 has been addressed by VHA MSO in numerous action plans that
were developed in response to OIG Report Review of VHA Sole-Source Contracts With
Affiliated Institutions (Report Number-09-00981-227) and Evaluation of VHA Community
Based Outpatient Clinic Fiscal Year 2012 (Report Number-13-00090-346).

VHA MSO has developed and provides ongoing comprehensive standardized training
on the requirements of VA Directive 1663 to procurement and non-procurement staff
who have responsibilities relating to sole source contracting with affiliates. The VHA
Procurement Manual also includes detailed Standard Operating Procedures (SOPs) on
Acquisition Planning and a supplemental acquisition planning guide. Clear and well
defined national standard Performance Work Statements (PWS) and Quality Assurance
Surveillance Plans (QASP) for Health Care specialties, traditionally acquired from VHA
Affiliated Institutions, have been created for many of the healthcare specialties and is an
ongoing effort for MSO.

MSO ensures all purchases of medical services from affiliated academic institutions
submitted to MSO are in compliance with VA Directive 1663 and procurement laws and
regulations. MSO has developed and implemented a tracking system for procurement
actions submitted to MSO. This report, however, does not cover actions awarded
outside of Electronic Contract Management System (eCMS) nor those under MSO
review thresholds. MSO will work with Integrated Funds Distribution Control Point
(IFCAP) experts and the National eCMS coordinator to develop a report to try and catch
any sole source affiliate awards completed in IFCAP or eCMS and send monthly reports


VA Office of Inspector General                                                                   13
Improper Procurement and Billing Practices for Anesthesiology Services, VASLCHCS, Salt Lake City, UT
                                                                                        Appendix B
to the Directors of Contracting informing them of any apparent incorrect actions so that
they may take action.

Recommendation 2. We recommended that the Under Secretary for Health
ensure that VA prohibits the use of purchase orders to obtain contract provider
services unless the purchase orders contain the required clauses identified in the
report.

VHA Comments:

Concur

Target date for completion: Completed

VHA has implemented the requirements of the VA PROCUREMENT POLICY
MEMORANDUM (PPM) - Mandatory Usage of VA's Electronic Contract Management
System (eCMS) This PPM applies to all acquisitions above the micro-purchase
threshold, except task or delivery orders placed by an Ordering Officer designated by a
contracting officer. The implementation of eCMS prohibits the use of purchase orders
to obtain contract provider services and the use of eCMS supports legal and technical
compliance by populating contract documents with up-to-date provisions and clauses.
The PPM is implemented via the VHA Procurement Manual Chapter IV: eCMS SOP.
The first eCMS SOP was released June 25, 2010. VHA Procurement leadership also
issued a memorandum on July 13, 2011 reinforcing this action. Please note the
findings from the OIG report occurred prior to the release of the VHA policies.




VA Office of Inspector General                                                                   14
Improper Procurement and Billing Practices for Anesthesiology Services, VASLCHCS, Salt Lake City, UT
                                                                                        Appendix C
                            VISN Director Comments


               Department of
               Veterans Affairs                              Memorandum

     Date:     February 20, 2014
     From:     Director, VA Rocky Mountain Network (10N19)
   Subject:	   Healthcare Inspection—Improper Procurement and
               Billing Practices for Anesthesiology Services, George E.
               Wahlen VA Healthcare System, Salt Lake City, UT
         To:   Under Secretary for Health (10)

               I have reviewed and concur on the responses for
               Recommendations 3 – 5 for the OIG Healthcare Inspection
               Report on the Improper Procurement and Billing Practices
               for Anesthesiology Services, George W. Wahlen, VAMS, VA
               Salt Lake City Healthcare System, Salt Lake City, UT.

               If you have any questions, please contact Ms. Susan Curtis,
               VISN 19 HSS at (303) 639-6995.




               Ralph T. Gigliotti, FACHE




VA Office of Inspector General                                                                   15
Improper Procurement and Billing Practices for Anesthesiology Services, VASLCHCS, Salt Lake City, UT



                         Comments to OIG’s Report
The following Director’s comments are submitted in response to the recommendations
in the OIG report:

OIG Recommendations

Recommendation 3. We recommended that the Veterans Integrated Service Network
Director ensure that the procurement of specialized medical services is in accordance
with VA Directive 1663.

Concur

Target date for completion: Completed

VISN response:

The Network Contracting Office (NCO) 19 recognizes the necessity and value of
procuring specialized medical services and assures they are procured in accordance
with VA Directive 1663. In 2011, NCO 19 contracting successfully transitioned from
procuring anesthesiology services via purchase orders to contracts.

Recommendation 4. We recommended that the Veterans Integrated Service Network
Director ensure that Interim Contract Authority is appropriately granted and used as
outlined in VA Directive 1663.

Concur

Target date for completion: Completed

VISN response:

The NCO 19 obtains Interim Contract Authority (ICA) from the VA PL&O MSO only
when appropriate (when there is insufficient time to process a long-term contract) and
per VA Directive 1663.




VA Office of Inspector General                                                                   16
Improper Procurement and Billing Practices for Anesthesiology Services, VASLCHCS, Salt Lake City, UT
                                                                                        Appendix D
                     VASLCHCS Director Comments


               Department of
               Veterans Affairs                              Memorandum

       Date:   February 14, 2014

       From: Director, VA Salt Lake City Health Care System (660)

     Subject:	 Healthcare    Inspection—Improper Procurement and
               Billing Practices for Anesthesiology Services, George E.
               Wahlen VA Healthcare System, Salt Lake City, UT

         To:   Director, Rocky Mountain Network (10N19)

               I concur with the Office of Inspector General’s
               recommendation for the subject report. The action has been
               completed.




               Steven W. Young, FACHE




VA Office of Inspector General                                                                   17
Improper Procurement and Billing Practices for Anesthesiology Services, VASLCHCS, Salt Lake City, UT



                         Comments to OIG’s Report
The following Director’s comments are submitted in response to the recommendations
in the OIG report:

OIG Recommendations

Recommendation 5. We recommended that the VA Salt Lake City Health Care
System Director develop and implement as necessary an alternate source plan for the
provision of anesthesiology services that complies with VA Directive 1663.

Concur

Target date for completion: Completed.

Facility response:       VASLCHCS and the University of Utah Department of
Anesthesiology have been collaboratively recruiting staff anesthesiologists to work
part-time at VASLCHCS and part-time at the University of Utah. To date, four
individuals, constituting 1.625 FTEE have been hired and work in the Operating Rooms
(additional physicians with anesthesia background work as Intensivists in the Surgical
Intensive Care Unit and in Interventional Pain Management). If on-going joint
recruitment is unsuccessful and if the Contracting Officer is unable to reach agreement
with the University of Utah Department of Anesthesiology, then VASLCHCS would
recruit full-time non-academic staff anesthesiologists or seek contractual arrangements
with other healthcare providers in the Salt Lake Valley. It should be noted that while this
is a viable alternative, this action has significant and profound consequences as the
relationships between University of Utah academic departments and VASLCHCS
cannot be viewed in isolation.




VA Office of Inspector General                                                                   18
Improper Procurement and Billing Practices for Anesthesiology Services, VASLCHCS, Salt Lake City, UT
                                                                                        Appendix E

                 OIG Contact and Staff Acknowledgments
Contact                  For more information about this report, please contact the OIG at
                         (202) 461-4720.
Contributors             Anthony Murray Leigh, CPA
                         Sonia Whig, MS, LDN
                         Thomas Seluzicki, CPA
                         Nathan Fong, CPA, CFE
                         Michael Shepherd, MD
                         Maureen Regan, JD




VA Office of Inspector General                                                                   19
Improper Procurement and Billing Practices for Anesthesiology Services, VASLCHCS, Salt Lake City, UT
                                                                                        Appendix F

                                 Report Distribution
VA Distribution

Office of the Secretary
Veterans Health Administration
Assistant Secretaries
General Counsel
Director, Rocky Mountain Network (10N19)
Director, George E. Wahlen VA Salt Lake City Health Care System (660)

Non-VA Distribution

House Committee on Veterans’ Affairs
House Appropriations Subcommittee on Military Construction, Veterans Affairs, and
 Related Agencies
House Committee on Oversight and Government Reform
Senate Committee on Veterans’ Affairs
Senate Appropriations Subcommittee on Military Construction, Veterans Affairs, and
 Related Agencies
Senate Committee on Homeland Security and Governmental Affairs
National Veterans Service Organizations
Government Accountability Office
Office of Management and Budget
U.S. Senate: Orrin G. Hatch, Mike Lee
U.S. House of Representatives: Rob Bishop, Jason Chaffetz, Jim Matheson,
Chris Stewart.


This report is available on our web site at www.va.gov/oig




VA Office of Inspector General                                                                   20
